NO. 20IN THE SUPREME COURT
OF THE UNITED STATES
In re Jerald Hammann, Petitioner,
and
Jerald Hammann, Petitioner,
vs.
Wells Fargo Bank, N. A., Respondent.

DECLARATION OF WORD COUNT
I, Jerald Hammann, hereby declare that the accompanying petition for a
writ of certiorari is typeset in a Century family 12-point type with 2-point
or more leading between lines. The typeface of footnotes is 10-point type
with 2-point or more leading between lines. The petition contains 8,097
words calculated in compliance with Supreme Court Rule 33(l)(g)(i).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 30, 2020

/s/Jerald Hammann
Jerald A. Hammann
1566 Sumter Ave N
Minneapolis, MN 55427
jerrympls@gmail.com
(612) 290-7282
Petitioner, pro se

